WAIVER
Supreme Court of the United States
No. 20-5336
Capt. Alice Brumbley
(Respondents)

v.

Matthew Jones
(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
X Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter
my appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
X I am not present] member of the Bar of this Court. Should a response be requested,
the respons w be ed. by Barmember.
Signature

Date: August 19, 2020
(Type or print) Name Allison J. McCowan
Mr.

Ms.

Mrs.

Miss

Firm. Delaware Department of Justice
Address 820 N. French St., 6th Fl.
City & State Zip Wilmington, DE 19801
Phone (302) 577-8400

SENDA COPY OF THIS FORM TO PETITIONER'S COUNSEL ORTO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc: Matthew Jones

RECEIVED
SEP - 4 2020
FFICE OF THE CLERK
SUPREME COURT, U.S.

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

